audit report



Return to the USDOJ/OIG Home Page



Office of Community Oriented Policing Services Grant to the City University of New York
GR-70-99-001
December 11, 1998
Office of the Inspector General

EXECUTIVE SUMMARY
On June 26, 1998, the Office of the Inspector General, Audit Division, issued a memorandum audit report (See Attachment) regarding a grant awarded to the City University of New York (CUNY) by the Office of Community Oriented Policing Services (COPS).  The report noted severe deficiencies in CUNY's records and requested that CUNY make available to us adequate documentation to complete the audit.  On November 30, 1998, we resumed our audit work at CUNY and found that CUNY was still unable to provide the necessary records.  

	The grant awarded totalled about $13 million to hire 175 full-time officers under the Universal Hiring Program.  Grant guidelines require that each grantee establish and maintain an accounting and financial records system to accurately account for funds awarded.  Such a system should:

present and itemize approved costs of salaries and benefits, and show the actual costs of salaries and benefits;

	assure responsible use of grant funds;

	assure that funds are spent in conformance with the grant conditions; and

	provide the necessary information for periodic review and audit.
 
Through documentation such as payroll records, CUNY could not show the total number of officers employed during the grant period.  Without this documentation, we could not determine if CUNY maintained the number of officers that it employed on the baseline date.  

	In addition, CUNY did not have budgets which showed the number of sworn police officers for the period December 1, 1992 through March 31, 1998.  Without this documentation, we could not determine if CUNY budgeted for decreases in police services in anticipation of receiving a COPS grant.  

	Because CUNY could not provide us with the critical records previously described, and because we were not able to apply other auditing procedures to satisfy ourselves that grant funds were spent in accordance with grant terms and conditions, the scope of our work was not sufficient to enable us to determine if CUNY was in compliance with the grant terms and conditions.  Therefore, we are questioning $4,055,905 in funds received by CUNY and recommend that the remaining grant funds totaling $8,881,377 be withheld as funds to better use.